I N THE

~upreme

QCourt of tbe Wniteb ~tates
No. 20-905

I NDEPENDENT SCHOOL DISTRICT N0. 283,

v.

Petitioner,

E.M.D.H. EX REL. L.H. AND S.D.,

Respondent.

On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Eighth Circuit
CERTIFICATE OF COMPLIANCE

Pursuant to this Court's Rule 33.l(h), I hereby certify that the Brief of National
School Boards Association, Minnesota School Boards Association, Arkansas School
Boards Association, Associated School Boards of South Dakota, Iowa Association of
School Boards, Missouri School Boards' Association, Nebraska Association of School
Boards, North Dakota School Boards Association, National Association of Elementary
School Principals, National Association of Secondar y School Principals As Amici Curiae
in Support of Petitioner contains 5,223 words, excluding parts of the document that are
exempted by Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 13, 2021.

~M.~~c:vt--Counsel ofRecord

MOLOLAMKEN LLP

The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
lwalker@mololamken.com
Counsel for Amici Curiae

